*

£

■

•4,

No.:
SUPREME COURT OF THE UNITED STATES
Li Qin

Petitioner

vs.

Barbara Kong-Brown et al. Respondents
On Petition for a Writ of Certiorari to
the United States Court of Appeals for the Ninth Circuit
APPENDIES TO THE PETITION FOR A WRIT OF CERTIORARI
INDEX OF APPENDICES
(Volume One)
Appendix

Description

Dated

A. Memorandum of U.S. Ninth Circuit Court of Appeals........

04/16/20

B. Order Adopting Report and Recommendation Re Granting

05/29/19

Leave to Proceed in Forma Pauperis and Dismissing Case with
Prejudice by U.S. District Court Northern District of California
C. Report and Recommendation to Grant Plaintiffs Amended,

05/06/19

In Forma Pauperis Application and Dismiss Plaintiffs FAC
with Prejudice
D. Opinion of Sixth Court of Appeal of State of California.......... 06/27/18
E. Order Re: Motion to Vacate Arbitration Award by.................. 03/24/16
Superior Court of State of California County of Santa Clara
F. Denying Review by Supreme Court of State of California

... 09/12/18

G. Order Re Motion to Dismiss by Arbitrator Barbara.........

.... 01/26/16

H. Order Re Hearing by Arbitrator Barbara.........................

11/09/15

W'

Appendixes

Page

No.:
SUPREME COURT OF THE UNITED STATES
('

Li Qin

Petitioner
VS.

Barbara Kong-Brown et al. Respondents
On Petition for a Writ of Certiorari to
the United States Court of Appeals for the Ninth Circuit
APPENDIES TO THE PETITION FOR A WRIT OF CERTIORARI

Appendix A

NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
APR 16 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

No. 19-16194

LI QIN,
Plaintiff-Appellant,

D.C.No. 5:19-cv-00311 -LHK

v.
MEMORANDUM*
BARBARA KONG-BROWN, is an
arbitrator; et al.,
Defendants-Appellees.
Appeal from the United States District CouFt
for the Northern District of California
Lucy H. Koh, District Judge, Presiding

o

Submitted April 7, 2020**
TASHIMA, BYBEE, and WATFORD, Circuit Judges.

Before:

We sua sponte grant Qin leave to proceed in forma pauperis on appeal.
Li Qin appeals pro se from the district court’s judgment dismissing her 42
Hr

U.S.C. § 1983 action alleging constitutional claims challenging the validity of a
private arbitration award. We have jurisdiction under 28 U.S.C. § 1291. We-

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.

w

The panel unanimously concludes this case is suitable for decision

without oral argument. See Fed. R. App. P. 34(a)(2).

w

review de novo. Noel v. Hall, 341 F.3d 1148, 1154 (9th Cir. 2003) (dismissal
under the Rooker-Feldman doctrine). We affirm.
The district court properly dismissed Qin’s action for lack of subject matter
jurisdiction under the Rooker-Feldman doctrine because it is a “de facto appeal” of
prior state court decisions and Qin raises claims that are “inextricably intertwined”
&

with those state court decisions. See id. at 1163-65 (discussing the RookerFeldman doctrine); see also Cooper v. Ramos, 704 F.3d 772, 7^2 (9th Cir. 2012)
(explaining that claims, as well as requests for damages, are “inextricably
intertwined” with the state court decisions where federal adjudication “would
impermissibly undercut the state ruling on the same issues” (citation and internal
*W

quotation marks omitted)).
To the extent that Qin challenges the district court’s order denying her
motion for reconsideration, we lack jurisdiction over that decision because Qin did
not file an amended notice of appeal after the district court denied the motion. See
Fed. R. App. P. 4(a)(4)(B)(ii); Harris v. Mangum, 863 F.3d 1133, 1137-38 n.l (9th
Cir. 2017).
AFFIRMED.

2

19-16194

No.:
SUPREME COURT OF THE UNITED STATES
Li Qin
Petitioner
vs.
Barbara Kong-Brown et al. Respondents
On Petition for a Writ of Certiorari to
the United States Court of Appeals for the Ninth Circuit
APPENDIES TO THE PETITION FOR A WRIT OF CERTIORARI

Appendix B

Case 5:19-cv-00311-LHK Document 23 Filed 05/29/19 Page 1 of 2

1
2
3
4
5
6
7
8

united states district court

9
NORTHERN DISTRICT OF CALIFORNIA
10
SAN JOSE DIVISION

11
.2

12

O a
U * rM

13

Ico £O

14

3 o

15

5 e

Si to

1°

16

"a
Si
a
D

17

G
£
tJ
o
Z

18
19

LI QIN,

Case No. 19-CV-0031.1 -LHK
Plaintiff,
v.

BARBARA KONG BROWN, et al,
Defendants.

ORDER ADOPTING REPORT AND
RECOMMENDATION RE GRANTING
LEAVE TO PROCEED IN FORMA
PAUPERIS AND DISMISSING CASE
WITH PREJUDICE
Re:Dkt. Nos. 18, 20

The Court has reviewed United States Magistrate Judge Susan van Keulen’s Report and
Recommendation Re: granting Plaintiff leave to proceed in forma pauperis and dismissing

case

20 II with prejudice. ECF No. 20. The time for objections has passed, and. the parties have filed
21

none.
See 28 U.S.C. § 636(b)(1). The Court finds the report correct, well-reasoned and thorough, and

22

accordingly adopts it in every respect. Accordingly, Plaintiffs motion for leave to proceed in

23 || forma pauperis is GRANTED. Moreover, the Court hereby DISMISSES the instant case with
24 | prejudice because die Court lacks subject matter jurisdiction, the Rooker-Feldman doctrine
25

prevents Plaintiff from refiling her claims in any federal district court, and the Court cannot

26 II identity a competent court where Plaintiff could reassert her claims.
27
28

1
Case No. 19-CV-0031 ] -LHK
ORDER ADOPTING REPORT AND RECOMMENDATION
PAUPERIS AND DISMISSING CASE WITH PREJUDICE RE GRANTING LEAVE TO PROCEED IN FORMA

Case 5:19-cv-00311-LHK Document 23 Filed 05/29/19 Page 2 of 2

1

IT IS SO ORDERED.

2

3

u.

Dated: May 29, 2019

4

LUCY mKOH
United States District Judge

5
6
7

8
9
10
11

si

12

O (O

13

£8
ki <*-<

14

Q tS
00
& ts

15

& Q

16

oo o

C/0 *"“t

■S I

| Hj

^1!

17
18
19
20

21
22
23
24

25
26

27
28

Case No. 19-CV-00311 -LHK

2

pauperis anddtsmSngcasewuH prejudIceN RE granting LEAVE to proceed IN FORMA

No.:
SUPREME COURT OF THE UNITED STATES
Li Qin

Petitioner
vs.
Barbara Kong-Brown et al. Respondents
On Petition for a Writ of Certiorari to
the United States Court of Appeals for the Ninth Circuit
APPENDIES TO THE PETITION FOR A WRIT OF CERTIORARI

Appendix C

Case 5:19-cv-00311-LHK Document 20 Filed 05/06/19 Page 1 of 8

1
2
3
4

UNITED STATES DISTRICT COURT

5

NORTHERN DISTRICT OF CALIFORNIA

6
7

Case No. 19-cv-00311 -SVK

LI QIN.
Plaintiff,

8
9
10

.11
<3

i'l

12

ai
$a a

13

Q tS
•V2
.2 Li
2

15

1/3

BARBARA KONG BROWN, et al.,
Defendants.

REPORT AND RECOMMENDATION
TO GRANT PLAINTIFF’S AMENDED
IN FORMA PAUPERIS APPLICATION
AND DISMISS PLAINTIFF’S
AMENDED COMPLAINT WITH
PREJUDICE PURSUANT TO 28 U.S.C.
§ 1915
Re: Dkt. Nos. 17,18,19

14

O

|S
T3

v.

ORDER FOR REASSIGNMENT TO A
DISTRICT JUDGE

C

•pb^o

Z

16

Plaintiff Li Qin, appearing pro se, filed an amended motion for leave to proceed in forma

17

pauperis (“IFP”) (ECF 18) and an amended complaint (“Amended Complaint”) (ECF 17) in

18

response to this Court’s February 7, 2019 order (ECF 5), denying Plaintiffs original IFP

19

application without prejudice and ordering Plaintiff to amend her complaint (“Complaint”)

20

21
22

(ECF 1). Plaintiff’s Amended Complaint challenges the dismissal of her medical malpractice
claims in an arbitration case against the Pennanente Medical Group. See ECF 17. Plaintiff s
original Complaint named three defendants: the arbitrator, Defendant Barbara Kong Brown, and
the two attorneys who represented the Pennanente Medical Group, Defendants John Steward

23

Simonson and Matthew Allen Bisbee. ECF 1 at 2-3. The Amended Complaint adds Kaiser
24

25
26

Foundation Hospitals, Kaiser Foundation Health Plan and the Pennanente Medical Group
(collectively “Kaiser”) as defendants. ECF 17 at 8.
This is the second order in the Court’s initial screening review for civil actions filed in

27

forma pauperis. 28U.S.C. § 1915. After reviewing Plaintiffs financial information in her

28

amended IFP application (“Amended IFP Application”), the Court finds that Plaintiff qualifies for

!

Case 5:19-cv-00311-LHK Document 20 Filed 05/06/19 Page 2 of 8

1

IFP status. The Court has also reviewed Plaintiffs attempt to remedy the issues in her original

2

Complaint, and the Court concludes that the Rooker-Feldman doctrine bars this Court from

3
4
5

6

asserting federal subject matter jurisdiction over Plaintiff s Amended Complaint. Accordingly,
the Court RECOMMENDS that the District Judge GRANT Plaintiffs Amended IFP application
and DISMISS Plaintiff s Amended Complaint WITH PREJUDICE.
I.

BACKGROUND
Plaintiffs medical malpractice claims arise from medical treatment she received from the

7

Permanente Medical Group in 2013 and 2014. ECF 17 at 9-12. In 2013, Plaintiff received atotal
8
hip replacement, which she alleges was misdiagnosed and wrongfully treated. Id. at 9, 16-17.
9
Plaintiffs second set of malpractice allegations center on a 2013 cesarean section allegedly
10
performed without her consent. Id. at 9-11. She further alleges that her cesarean section resulted
11
in complications including a hernia that required surgery to repair. Id. at 10-12. Plaintiff
12

u I 13
\J XI

13

14

5?/) $
*d

15

7? o

repair her hernia after her insurance would not cover it, forcing her to seek treatment at another
hospital. Id. at 11-12. In her Amended Complaint, Plaintiff challenges die January 26, 2016

£ 7?
B q
CO _

16

1c J-£

17

Z

18

D ©

additionally alleges that the Permanente Group unlawfully refused to continue with the surgery to

dismissal of the medical malpractice case that she brought against the Permanente Medical Group
through a private arbitration process. Id. at 8,12-27. Plaintiff alleges that Defendants Brown,
Simonson and Bisbee conspired to unlawfully deny her claims. Id. at 12-27. In particular, she
alleges that Defendant Brown, the arbitrator, engaged in numerous ex-parte communications with
19
the lawyers representing the Permanente Medical Group, Defendants Simson and Bisbee. Id. at
20

13-16. Plaintiff also contends that Defendants falsified evidence. Id. at 16-18, 26-27. Based on
21
these allegations, Plaintiff seeks compensatory and punitive damages, including $200,000 for her
22
23

medical costs. Id. at 38.
On February 7,2019, the Court denied Plaintiffs IFP application without prejudice based

24

on Plaintiffs failure to provide the date other last employment and salary per month that she
25
received as well as indicate whether her spouse is employed and her spouse’s income. ECF 5 at 2.
26

27

The Court also conducted an initial screening review of Plaintiff s Complaint pursuant to
28 U.S.C. § 1915 and found that the Complaint did not establish federal subject matter jurisdiction

28
2

Case 5:19-cv-00311-LHK Document 20 Filed 05/06/19 Page 3 of 8

1

because it failed to state a viable federal claim. Id. at 3- 11. In particular, the Court found that

2

Plaintiffs claims under 42 U.S.C. § 1983 failed to plead that the dismissal of her arbitration claim

3

was a state action and that Defendants’ actions are fairly attributable to the State. Id. at 5-6. The

4

Court also found that Plaintiffs Federal Arbitration Act (“FAA”) claim failed to provide facts to

5

establish the applicability of the FAA or a basis to conclude to that the statute of limitations did

6

not bar her claim. Id. at 6-8. The Court thus instructed Plaintiff to submit an amended IFP

7

application and an amended complaint.
Plaintiff filed an Amended IFP Application and an Amended Complaint on April 10, 2019.

8
9

«

11
o

O IS

.so
in <+*
co

ECF 17; ECF 18. The Amended Complaint sets forth similar allegations as the original

10

Complaint, but the Amended Complaint adds allegations regarding Plaintiffs previous attempt to

11

challenge her arbitration decision in California Superior Court and then at the California Court of

12

Appeal. ECF 17 at 29-26. Plaintiffs state court action ended after the California Court of Appeal

13

affirmed the denial of her petition to vacate the arbitration award, a decision that the California

14

Supreme Court declined to review. Id; see also Li Qin v. Kaiser Found. Hosps.,No. H044035,

15

2018 WL 3135414, at *4 (Cal. Ct. App. June 27, 2018), review denied (Sept. 12, 2018).1 The

16

Amended Complaint pleads claims for violations of Plaintiff s civil and due process rights,

17

discrimination and “corruptive arbitration.” ECF 17 at 36-38.

O

Q t3
42 3

3 Q

C/5

-a £

•3 f

D o

18
19

II.

PLAINTIFF’S AMENDED IFP APPLICATION
If the Court is satisfied that an applicant cannot pay lire requisite filing fees, the Court may

20

grant an IFP application. 28 U.S.C. § 1915(a)(1). Although § 1915(a)(1) “does not itself define

21

what constitutes insufficient assets,” a plaintiff seeking IFP status “must allege poverty with some

22

particularity, definiteness, and certainty.” Balikv. City of Cedar Falls, No. 16-CV-04070-LHK,

23

2016 WL 4492589, at: *2 (N.D. Cal. Aug. 26,2016) (quoting Escobedo v. Applebees, 787 F.3d

24

1226, 1234 (9th Cir. 2015)).

25
26

Plaintiffs Amended IFP Application is complete and states that she receives $950 a month
from government programs. ECF 18 at 2. Her spouse receives an additional $890 a month in

27
28

1 Plaintiff attaches a copy of the Court of Appeal’s decision as Exhibit 10 to her Amended
Complaint. ECF 19 at Ex. 10.
3

Case 5:19-cv-00311-LHK Document 20 Filed 05/06/19 Page 4 of 8

1

social security benefits, making their combined income $1,840. Id. Her monthly expenses total

2

$1,760, which leaves Plaintiff with a monthly surplus of roughly $80. Id. at 3. Accordingly, the

3

Court finds that Plaintiff satisfies the financial requirements for IFP status and RECOMMENDS

4

that the District Judge GRANT her Amended IFP Application.

5
6
7

•e
§
9
U

«
'S|
a
s

PLAINTIFF’S AMENDED COMPLAINT
A. Screening under § 1915(e)(2)
District courts must screen civil actions filed in forma pauperis to ensure that the complaint

8

states a claim, is not frivolous and does not seek monetary relief against a defendant who is

9

immune from such relief. 28 U.S.C. § 1915(e)(2); Lopez v. Smith, 203 F.3d 1122, 112-27 (9th

10

Cir. 2000) (en banc). A “frivolous” complaint “lacks an arguable basis either in law or in fact.”

11

Neitzke v. Williams, 490 U.S. 319, 324 (1989). The Ninth Circuit has noted that

12

§ 1915(e)(2)(B)(ii) parallels the language of Federal Rule of Civil Procedure 12(b)(6). Barren v.

13

Harrington, 152 F.3d 1193, 1194 (9th Cir. 1998). Both Rule 12(b)(6) and § 1915(e)(2)(B) require

15 14
co

III.

a district court to dismiss a complaint that fails to state a claim upon which relief can be granted .

O

5 u
§ «
IS

15
16

a claim to relief that is plausible on its face.’” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009)

17

(quoting BellAtl. Corp. v. Twombly, 550 U.S. 544, 570 (2007)). Pursuant to a § 1915 review,

18

“[dismissal is proper only if it is clear ihat the plaintiff cannot prove any set of facts in support of

19

the claim that would entitle him to relief.” Watison v. Carter, 668 F.3d 1108, 1112 (9th Cir. 2012)

20

(citations omitted). In its review, the Court liberally construes pro se pleadings. Wilhelm v.

21

Roman, 680 F.3d 1113, 1121 (9th Cir. 2012).

■X3 £

Si M

•a

D o

Z

The plaintiffs “complaint must contain sufficient factual matter, accepted as true, to ‘state

22
23
24

B. Federal Subject Matter Jurisdiction and the Rooker-Feldman Doctrine
1. Legal Background
A lack of subject matter j urisdiction may support a finding that a complaint is frivolous.

25

See Pratt v. Sumner, 807 F.2d 817, 819 (9th Cir. 1987). The Court similarly has a continuing duty

26

to determine whether it has subject matter jurisdiction. Fed. R. Civ. Proc. 12(h)(3). Federal

27

question jurisdiction under 28 U.S.C. § 1331 and diversity jurisdiction under 28 U.S.C. § 1332 are

28

the two most common forms of federal subject matter j urisdiction. Federal question jurisdiction
4

Case 5:19-cv-00311-LHK Document 20 Filed 05/06/19 Page 5 of 8

1

exists over actions “arising under the Constitution, laws, or treaties of the United States.”

2

28 U.S.C. § 1331. The well-pleaded complaint rule governs whether a complaint establishes

3

federal question jurisdiction and “provides that federal jurisdiction exists only when a federal

4

question is presented on the face of the plaintiff’s properly pleaded complaint.” Caterpillar Inc. v.

5

Williams, 482 U.S. 386, 392 (1987) (citation omitted). Diversity jurisdiction requires that all

6.

plaintiffs be of diverse citizenship from all defendants and that die amount in controversy exceeds

7

$75,000. 28 U.S.C. § 1332(a); Exxon Mobil Corp. v. Allapallah Svcs., Inc., 545 U.S. 546, 553-54

8

(2005).2
Under the Rooker-Feldman doctrine, federal district courts do not have subject matter

9
10

jurisdiction over cases where the loser of a state court case seeks to overturn a state court decision

11

or obtain relief from that decision. Exxon Mobil Corp. v. Saudi Basic Indus. Corp., 544 U.S. 280,

12

284 (2005). This is because “[t]he United States Supreme Court is the only federal court with

i1
61 13
& O

jurisdiction to hear such an appeal.” Noel v. Hall, 341 F.3d 1148,1154 (9th Cir. 2003). As a

14

result, a federal district court must refuse to hear a “de facto appeal from a judicial decision of a

15

state court,” and “[a]s part of that refusal, it must also refuse to decide any issue raised in the suit

16

that is ‘inextricably intertwined’ with an issue resolved by the state court in its judicial decision.”

17

Id. at 1158.

• i-H

Q
x/} '

JB 75
B >S

S B
•aD£ Mu©

Z

2. Analysis

18
19

Plaintiff’s Amended Complaint seeks to overturn the denial of Plaintiff s previous

20

challenge to the arbitration decision by California Superior Court, which the California Court of

21

Appeal affirmed. ECF 17 at 29-26. Although Plaintiff does not explicitly request relief from the

22

Court of Appeal’s decision, the Amended Complaint details how the Court of Appeal rejected the

23

same arguments raised by Plaintiff here. Id. Specifically, all lour of Plaintiff s claims center on

24

the allegedly “corruptive arbitration” conducted by Defendants:

25
26

•

Plaintiffs first and second claims allege that through their “corruptive arbitration,”
Defendants deprived Plaintiff of her civil rights under die Fifth and Fourt eenth

27
28

2 Plaintiff does not attempt to plead diversity j urisdiction, nor could she given that the Amended
Complaint alleges Plaintiff and all Defendants reside in California. ECF 17 at 8.
5

Case 5:19-cv-00311-LHK Document 20 Filed 05/06/19 Page 6 of 8

Amendments. Id. at 36-37.

1
•

2

Plaintiffs third claim alleges that Defendants engaged in unlawful disability

3

discrimination by imposing a “corruptive arbitration” and denying her scheduled hernia

4

repair surgery. Id. at 37.
•

5

Plaintiffs fourth claim alleges that “Defendants conducted a corruptive, conspiratorial
arbitration” in violation of the FAA and other statutes. Id.

6

Plaintiffs claim that Defendants conducted a corrupt arbitration directly contradicts the

7
8

conclusion of the California Court of Appeal, which found that “none of the situations in which, a

9

court is authorized to vacate an arbitration award is present” in Plaintiffs case. Qin, 2018 WL

10

3135414. at *1. The Court of Appeal further considered and rejected the same factual and legal

11

arguments that Plaintiffs Amended Complaint raises:
•

The Court of Appeal held that the arbitrator properly dismissed Plaintiff s misdiagnosis

Cj

12

3 £
,9 <2

13

claim based on the statute of limitations “because her demand for arbitration was

■n u

14

submitted more than one year after the diagnosis in question.” Id. at 2.

co

O

S «ts

15

£ 75
-3 o

16

attorneys ‘fabricated a false [demand for arbitration] via some computer technic [sic].’”

.« -S2

17

Id.

D <2
Z

18

cn

j-

S e
a tJ

•

•

The Court found that “the record does not support” Plaintiffs claim “that Kaiser’s

The Court considered Plaintiffs argument regarding improper ex parte emails between

19

Kaiser’s lawyers and the arbitrator. Id. at 3. The Court concluded that “the messages

20

predating the arbitrator’s decision relate only to scheduling various hearings” and found

21

no evidence “in the emails to indicate the arbitration award was obtained by fraud,

22

corruption, or other improper means.” Id.
«

23

The Court held that Plaintiff “provide[d] no facts to support” her theory that the

24

arbitrator, Defendant Brown, is biased because she “receives most of her income from

25

Kaiser.” Id. The Court also found evidence that Defendant Brown granted “at least two

26

of [Plaintiffs] motions” contrary to Plaintiff's argument that she denied all Plaintiff s

27

motions. Id.

28

llll
6

Case 5:19-cv-00311-LHK Document 20 Filed 05/06/19 Page 7 of 8

•
2

comply with the rules governing expert witness disclosure, a lack of any medical expert

3

testimony to support the claim, and disruptive conduct by Qin during her deposition

4

amounting to an abuse of the discovery process.” Id.

5

II

Q§
Ip

ta o
Q t>

1£
- Q

•

The Court held that Plaintiff s assertions that “Kaiser did not obtain her informed

6

consent as required by law before performing a surgical procedure” and that “her

7

deposition was ‘torturing and oppressive”’ do not provide “a basis to vacate an

8

arbitration award,” even if true. Id. \

9

C3

The Court also upheld the dismissal of Plaintiffs arbitration claim “based on a failure to

•

Lastly, the Court rejected Plaintiffs argument that “her constitutional right to due

10

process was violated by the arbitration” because “an arbitration award is the product of a

11

private arrangement, not state action.” Id. Thus, the “arbitration proceedings do not

12

implicate the right to due process.” Id.

13

A significant portion of Plaintiff s Amended Complaint details Plaintiffs allegations

i4

regarding why the Court of Appeal erred in these conclusions. EC.F 17 at 31-35. Ruling on any of

15

Plaintiffs claims in her Amended Complaint would require the Court to review these conclusions,

16

rendering Plaintiffs Amended Complaint a de facto appeal of the Court of Appeal’s decision.

17

Furthermore, Plaintiff asserts drat the Superior Court’s and the Court of Appeal’s affirmation of

18

the arbitration decision “constituted the state action” necessary for a 42 U.S.C. § 1983 claim. Id.

19

at 29; See also Litgar v. Edmondson Oil Co457 U.S. 922, 937 (1982) (holding that under

20

42 U.S.C. § 1983, “the conduct allegedly causing the deprivation of a federal right [must] be fairly

21

attributable to the State”). As a result, Plaintiff argues that the state courts’ actions, including the

22

California Supreme Court’s refusal to review her appeal, form a necessary component of the

23

claims in her Amended Complaint. Accordingly, the Court finds that (lie Rooker-Feldman

24

doctrine bars this Court from asserting subject matter jurisdiction over Plaintiff s Amended

25

Complaint.

M C

-a E

£ S
L) o
Z

’ ’—i

'

26

The Ninth Circuit generally recognizes that “[djismissals for lack of jurisdiction ‘should be

27

... without prejudice so that a plaintiff may reassert his claims in a competent court.’” Freeman

28

v. Oakland Unified Sch. Dist., 179 F.3d 846, 847 (9th Cir. 1999) (quoting Frigard v. United
7

!

Case 5:19-cv-00311-LHK Document 20 Filed 05/06/19 Page 8 of 8

1

States, 862 F.2d 201, 204 (9th Cir. 1988)). However, in this instance, the Court lacks subject

2

matter jurisdiction, and the Rooker-Feldman doctrine bars Plaintiff from refiling her claims in any

3

federal district court. Indeed, the Court cannot identify a competent court where Plaintiff could

4

reassert her claims. The Court thus RECOMMENDS that Plaintiffs Amended Complaint be

5

DISMISSED WITH PREJUDICE.

6
7

IV.

CONCLUSION
For the reasons discussed above, this Court RECOMMENDS that the District Judge

8

GRANT Plaintiffs Amended IFP application and DISMISS Plaintiffs Amended Complaint

9

WITH PREJUDICE. Any party may object to this recommendation but must do so within

10

fourteen days of being served. Fed. R. Civ. P. 72(b). A failure to file a timely objection will

11

waive any opposition to the recommendation.
The Court reminds Plaintiff that the Federal Pro Se Program at the San Jose Courthouse

C3

12

3 £
o £

13

provides free information and limited-scope legal advice to pro se litigants in federal civil cases.

■c P
J5 o

14

The Federal Pro Se Program is available by appointment and on a drop-in basis. The Federal Pro

Q o
v\'d

15

Se Program is available at Room 2070 in the United States Courthouse in San Jose (Monday to

$5
3 Q

16

Thursday 9:00 a.m.-4:00 p.m., on Friday by appointment only), or by calling (408) 297-1480.

2M

17

Parties may make appointments by contacting the program’s staff attorney, Mr. Kevin Knestrick,

18

at (408) 297-1480 or kknestrick@asianlawalliance.org. In addition, the Court offers a pro se

19

handbook free of charge; a copy may be obtained from the Clerk’s office or downloaded from

20

http ://cand. uscourts. go v/prosehandbook.

21

SO RECOMMENDED.

•4_j

CO
tj

o3

_
G

c rt

P O

X

22
23

Dated: May 6, 201.9

24
25
SUSAN VAN KEULEN
United States Magistrate Judge

26
27
28
8

No.:
SUPREME COURT OF THE UNITED STATES
Li Qin

Petitioner
vs.
Barbara Kong-Brown et al. Respondents
On Petition for a Writ of Certiorari to
the United States Court of Appeals for the Ninth Circuit
APPENDIES TO THE PETITION FOR A WRIT OF CERTIORARI

Appendix D

Filed 6/27/18 Qin v. Kaiser Foundation Flospitals CA6

NOT TO BE PUBLISHED IN OFFICIAL REPORTS
or ordered published for purposes of rule 8.1115.____________________________________________________________

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
SIXTH APPELLATE DISTRICT
LI QIN,

H044035
(Santa Clara County
Super. Ct. No. 16-CV-291867)

Plaintiff and Appellant,
v.
KAISER FOUNDATION HOSPITALS,
ET AL„
Defendants and Respondents.

Li Qin appeals an order denying her petition to vacate an arbitration award.
Because none of the situations in which a court is authorized to vacate an arbitration
award is present here, we will affirm the order.
I.

BACKGROUND

Qin brought a medical malpractice claim in arbitration against Kaiser Foundation
Hospitals, under the provision in her Kaiser health plan requiring that any such dispute be
resolved by private arbitration. She alleged two unrelated incidents of medical
negligence: the misdiagnosis of a fracture in her leg, and a cesarean section procedure
that left her with an incisional hernia.
Kaiser asked the arbitrator to summarily adjudicate the case in its favor because
there were no disputed factual issues to be resolved at the arbitration hearing. The
arbitrator ruled that Kaiser was entitled to summary adjudication of Qin’s misdiagnosis
claim because it was undisputed that the diagnosis occurred more than a year before the
demand for arbitration, so the claim was barred by the statute of limitations. But the

arbitrator determined there were disputed facts precluding summary adjudication of the
hernia claim: Though Kaiser’s expert witness opined that the treatment provided to Qin
was not negligent, Qin submitted a declaration from her own medical expert indicating
that the treatment fell below the standard of care. Her expert’s declaration contained a
significant disclaimer, however: “I hereby emphasize that this opinion is based upon
information which has been provided to me by the claimant and her husband. I reserve
the right to modify this opinion in the event that additional information is brought to my
attention.”
Before the date of the arbitration hearing, Kaiser moved to dismiss Qin’s
remaining claim. Kaiser argued that at the time Qin’s expert rendered his opinion, he had
not reviewed all the relevant medical records and was therefore not sufficiently familiar
with the case to provide an expert opinion. In support of the motion, Kaiser submitted a
recent email the expert sent to Qin, in which he told her (as foreshadowed by his earlier
disclaimer) that he was now unable to testify there was negligence. He stated that after
reviewing the records he saw nothing to indicate that Qin ever reported a problem after
her cesarean section, which left him “unable to testify that there is evidence that an
incisional hernia occurred at a very early post op time.”
The arbitrator dismissed the claim, finding Qin had failed to comply with the rules
regarding expert witness disclosure by not initially giving the expert the records
necessary to assess the case. The arbitrator also found dismissal appropriate because
expert medical testimony was required for Qin to prove her claim, and the expert’s
retraction of his opinion left her without any. The arbitrator further found that Qin and
her husband had engaged in obstructive behavior during her deposition and therefore
dismissal was warranted as a sanction for abusing the discovery process.
Qin petitioned the Superior Court for an order vacating the arbitration award. She
appeals the denial of that petition.
2

n.

DISCUSSION

A. Limitations on Judicial Review of Arbitration Awards
The role of courts in reviewing arbitration awards is very limited. When parties
agree to resolve a dispute by private arbitration, they typically expect the dispute will be
resolved outside the judicial system. {Moncharsh v. Heily & Blase (1992) 3 Cal.4th 1, 9
{Moncharsh).) “The arbitrator’s decision should be the end, not the beginning of the
dispute. []f] ... Because the decision to arbitrate grievances evinces the parties’ intent to
bypass the judicial system and thus avoid potential delays at the trial and appellate levels,
arbitral finality is a core component of the parties’ agreement to submit to arbitration.”
{Id. at p. 10.) For that reason, a court has no power to set aside the decision of an
arbitrator even when the decision is obviously wrong, either because of a legal error or a
mistake of fact. {Royal Alliance Associates, Inc. v. Liebhaber (2016)
2 Cal.App.5th 1092, 1105.) The parties’ agreement is that the arbitrator’s decision, even
if incorrect, will be final. {Moncharsh, at p. 12, citing Griffith Co. v. San Diego College
For Women (1955) 45 Cal.2d 501, 515-516.)
The Legislature has mitigated the risk of an erroneous arbitration decision by
providing for limited judicial review “in circumstances involving serious problems with
the award itself, or with the fairness of the arbitration process.” {Moncharsh, supra,
3 Cal.4th at p. 12.) The grounds for vacating an arbitration award are set forth in Code of
Civil Procedure, section 1286.2, subdivision (a), which provides that a court shall vacate
an award if (1) it was procured by corruption, fraud, or other undue means; (2) there was
corruption in the arbitrator; (3) a party was prejudiced by the arbitrator’s misconduct;
(4) the arbitrator exceeded his or her powers; (5) a party was prejudiced by the
arbitrator’s refusal to postpone the hearing, refusal to hear evidence, or other conduct
contrary to law; or (6) the arbitrator failed to disclose a conflict of interest. Those are the
only circumstances under which a court is authorized to vacate an arbitration award.
{Moncharsh, at p. 33.) We review de novo a trial court’s order denying a petition to
3

vacate an arbitration award, though we defer to the trial court’s findings regarding any
disputed facts so long as they are supported by substantial evidence. (Maaso v. Signer
(2012) 203 Cal.App.4th 362, 371.)
B. No Grounds for Vacating an Arbitration Award Are Present
Qin, who is representing herself on appeal (as she did below), primarily contends
that the arbitrator’s decision was incorrect because her case is meritorious. That is not a
basis for a court to vacate an arbitration award. (See Moncharsh, supra, 3 Cal.4th at
p. 12.) But she also asserts that the arbitration was corrupt and the procedure unfair,
circumstances which potentially could allow for the award to be vacated. Though Qin
has not specified the precise legal grounds on which she relies, we analyze her arguments
under the framework of section 1286.2, subdivision (a) (unspecified statutory references
are to the Code of Civil Procedure), since that statute provides her only possible avenue
for relief.1
Qin asserts that the arbitrator’s ruling summarily adjudicating the claim for
misdiagnosis of her leg fracture was based on false evidence. We construe that as a
contention under section 1286.2, subdivision (a)(1) that the arbitration award was based
on corruption or fraud. We note that it is permissible for an arbitrator to employ a
summary adjudication procedure for resolving claims with no disputed material factual
issues. (Schlessinger v. Rosenfeld, Meyer & Susman (1995) 40 Cal.App.4th 1096, 1104.)
The arbitrator here determined it was undisputed that Qin’s misdiagnosis claim was time
Qin’s failure to provide legal authority to support her arguments is a violation of
the California Rules of Court. (Cal. Rules of Court, rule 8.204(a)(1)(B).) So too is her
failure to support most of the factual assertions in her brief with citations to the record.
(Cal. Rules of Court, rule 8.204(a)(1)(C).) Not being represented by an attorney does not
excuse a party from complying with the rules. (Nowusa v. Uba (2004) 122 Cal.App.4th
1229,1246-1247.) We will nonetheless exercise our discretion to reach the merits of
Qin’s contentions. (Cal. Rules of Court, rule 8.204(e)(2)(C).) But her disregard of the
rules could be deemed a waiver of her arguments on appeal, and provides an alternative
ground for affirmance.
4

barred because her demand for arbitration was submitted more than one year after the
diagnosis in question. Qin asserts that Kaiser’s attorneys “fabricated a false [demand for
arbitration] via some computer technic [sic],” presumably a demand showing a later
filing date. But nothing in the record supports that assertion, and the burden is on Qin as
the party attacking the arbitration award to show why it should be vacated. {Lopes v.
Millsap (1992) 6 Cal.App.4th 1679, 1685.) Since the record does not support the
contention, we must reject it.
Qin also contends that the award in Kaiser’s favor resulted from improper ex parte
communication between its lawyers and the arbitrator. This argument too can be
construed as a contention that the award was procured by fraud or corruption (§ 1286.2,
subd. (a)(1).) The record does contain several emails between Kaiser’s attorneys and the
arbitrator, but the messages predating the arbitrator’s decision relate only to scheduling
various hearings. While it would have been advisable for counsel to copy Qin on every
communication with the arbitrator to avoid accusations of improper ex parte contact, we
see nothing in the emails to indicate the arbitration award was obtained by fraud,
corruption, or other improper means.
Qin argues that the result of the arbitration was essentially preordained because the
arbitrator was biased in Kaiser’s favor, given that, according to Qin, the arbitrator
receives the majority of her income from arbitrating claims brought against Kaiser. We
treat that as a contention under section 1286.2, subdivision (a)(2) that there was
corruption in the arbitrator. In pressing the point, Qin asserts that Kaiser pays its lawyers
and the arbitrator premium salaries “like a tyrannical master raises and feeds two teams
of dogs” for protection. The argument is not without eloquence. But again, Qin provides
no facts to support it. There is nothing in the record showing that the arbitrator receives
most of her income from Kaiser, so the premise for the bias argument fails. Qin also
asserts as evidence of bias that the arbitrator denied every motion she brought. Contrary
5

to that assertion, the record reveals that the arbitrator granted at least two of her motions
(to compel certain depositions).
Qin contends that the arbitrator improperly dismissed her hernia claim. We
construe that as a contention under section 1286.2, subdivision (a)(4) that the arbitrator
exceeded her powers. The arbitrator’s order dismissing the claim was based on a failure
to comply with the rules governing expert witness disclosure, a lack of any medical
expert testimony to support the claim, and disruptive conduct by Qin during her
deposition amounting to an abuse of the discovery process. Qin argues that the dismissal
was legally incorrect and that the facts do not support the decision. She asserts, for
instance, that her expert submitted to a deposition and that she otherwise complied with
the applicable discovery rules. But an arbitrator does not exceed her powers by making a
decision that is legally or factually wrong. (Moncharsh, supra, 3 Cal.4th at p. 28.) And
an arbitrator generally has the power to order any relief that can be ordered by a court
(Advanced Micro Devices, Inc. v. Intel. Corp. (1994) 9 Cal.4th 362, 384), including ~
discovery sanctions. {Alexander v. Blue Cross of California (2001) 88 Cal.App.4th 1082,
1089.) Qin has not shown that the arbitrator exceeded her powers by dismissing the
hernia claim.
Qin argues that the award should be vacated because Kaiser did not obtain her
informed consent as required by law before performing a surgical procedure, and because
her deposition was “torturing and oppressive” and should have resulted in discovery
sanctions against Kaiser’s counsel. Even if true, neither of those circumstances would be
a basis to vacate an arbitration award. (See § 1286.2, subd. (a).) Qin argues in passing
that her constitutional right to due process was violated by the arbitration. But since an
arbitration award is the product of a private arrangement, not state action, arbitration
proceedings do not implicate the right to due process. (Rifkind & Sterling, Inc. v. Rifkind
(1994) 28 Cal.App.4th 1282, 1292.)
6

C. Qin’s Motions are Denied
Qin filed various motions in this court that we ordered considered with the merits
of her appeal. She moved to compel Kaiser to produce documents in response to a
discovery request, but discovery is not allowed while an appeal is pending unless
necessary to preserve evidence and then only after obtaining an order from the trial court.
(Code Civ. Proc., §§ 2036.010, 2036.030). And a motion to compel discovery responses
can only be brought in the trial court. We therefore deny the motion.
Qin moved to augment the record on appeal to include certain emails attached to
the motion and other documents, such as the arbitration agreement, which she does not
have but asserts are in Kaiser’s possession. Some of the emails attached to the motion
are already contained in the record, as is the arbitration agreement. The other identified
documents were not before the trial court. For those reasons, the motion to augment is
denied.
Qin also filed a document entitled “Appeallanf s [szc] Petition for the Hearing of
Her Case of Appeal,” which appears to have been prompted by a misperception that our
order deferring her motions for consideration with the appeal was an order dismissing the
appeal. She asks that this court not dismiss the appeal without first “scheduling] a
hearing.” We have not dismissed the appeal, and we heard oral argument before the
matter was submitted and decided, so that request is moot.
HI.

DISPOSITION

The order denying the petition to vacate the arbitration award is affirmed.
Respondents shall recover costs on appeal.

7

Grover, J.

WE CONCUR:

Premo, Acting P. J.

Elia, J.

H044035 - Qin v. Kaiser Foundation Hospitals et al.

No.:
SUPREME COURT OF THE UNITED STATES
Li Qin

Petitioner
vs.
Barbara Kong-Brown et al. Respondents
On Petition for a Writ of Certiorari to
the United States Court of Appeals for the Ninth Circuit
APPENDIES TO THE PETITION FOR A WRIT OF CERTIORARI

Appendix E

1
2

yNeoftS|&)

F

3
4

MAR 2 A 20)6

D

DAVID H. YAMASAKI
Chief Executive QJffc9«S*g; Cian i
Superior G
.Deput'
By.

5
6
7

SUPERIOR COURT OF THE STATE OF CALIFORNIA
COUNTY OF SANTA CLARA

8
9
10
ii
12

CASE NO.: 16CV291867

LIN QIN
Plaintiff,

*

ORDER RE: Motion to Vacate Arbitration
Award

13
VS.
14

i

KAISER FOUNDATION
Defendant.

A'*

16
17

Plantiffs Motion to Vacate the Arbitration Award came on regularly for hearing on

18

March 24,2016, in Department 7. After considering the submissions of the parties and the

19

arguments presented, the tentative ruling is adopted and the motion is denied.

20
21
22

DATED: J

23

M
BETH MCG6wfeN

/£,

JUDGE OF THE SUPERIOR COURT

24
25
26
27
28

l

ORDER RE:

No.:
SUPREME COURT OF THE UNITED STATES
Li Qin

Petitioner
vs.
Barbara Kong-Brown et al. Respondents
On Petition for a Writ of Certiorari to
the United States Court of Appeals for the Ninth Circuit
APPENDIES TO THE PETITION FOR A WRIT OF CERTIORARI

Appendix F

SUPREME COURT

FILED
SEP 1 2 2018

i

Court of Appeal, Sixth Appellate District - No. H044035

Jorge Navarrete Clerk

S250376

Deputy

IN THE SUPREME COURT OF CALIFORNIA
En Banc

LI QIN, Plaintiff and Appellant,
%

v.

KAISER FOUNDATION HOSPITALS, et al., Defendants and Respondents.

The petition for review is denied.

$

i

CANTIL-SAKAUYE
Chief Justice

No.:
SUPREME COURT OF THE UNITED STATES
Li Qin

Petitioner

vs.
Barbara Kong-Brown et al. Respondents
On Petition for a Writ of Certiorari to
the United States Court of Appeals for the Ninth Circuit
APPENDIES TO THE PETITION FOR A WRIT OF CERTIORARI

Appendix G

BARBARA KONG-BROWN, ESQ.
ARBITRATOR
P.O. Box 10366
Oakland; CA 94610

Tel. 510-208-3688
Fax. 510-208-5188
e-mail: Bkonqbrown@aol.com
IN THE ARBITRATION OF
LI QIN

)
)

ORDER RE MOTION TO
DISMISS

)

)
)
Claimant,

Case No. 13284
Date: January 26, 2016

)
)
)
)

Vs.

KAISER FOUNDATION HOSPITALS, )
KAISER FOUNDATION HEALTH PLAN,)
INC., THE PERMANENTE MEDICAL
)
GROUP, INC.
)

Respondents

KAISER

FOUNDATION

HOSITALS,

KAISER

FOUNDATION HEALTH PLAN, INC., and THE PERMANENTE MEDICAL
GROUP, INC.(Respondents) Motion to Dismiss Claimant Li Qin’s Demand for
Arbitration was scheduled for Hearing on January 7, 2016, before Neutral
Arbitrator Barbara Kong-Brown, Esq. The Hearing on the Motion to Dismiss was
properly noticed on December 23, 2015, and Claimant was provided the
opportunity to submit documents in opposition to Respondent’s motion. Claimant
submitted a document entitled “Claimant’s Arbitration Brief’ which was received
by the Arbitrator on January 6, 2016, one day prior the hearing on the
Respondent’s motion.

1

S3

i-K

Contentions of the Parties
The Respondent served its Notice of Motion and Motion to dismiss on the
grounds that:
1. The Claimant’s husband, Zhi Xun Sun (Zhixun Sun) violated the
Arbitrator’s Order not to speak on behalf of his wife;
2. Claimant failed to comply with expert disclosure requirements pursuant
to Code of Civil Procedure 2034, and cannot meet her burden of proof of
establishing the essential elements of her claim for medical malpractice.
Respondents further object to any expert opinion offered by the Claimant at the
Arbitration pursuant to Code of Civil Procedure 2034.260.
The Respondent contends that the Claimant has not served a timely
Exchange of Witness Disclosure. She served a late Exchange of Witness
Disclosure which is substantially defective as well as being untimely.
The Claimant contends that the Respondent failed to inform the Claimant
about the surgical risks and did not consult the claimant about a consent for the
operation, anesthesia, procedure and medical service; that the Respondent did
not provide all the Claimant’s medical records to their expert, Dr. Wachtel; that
the Respondent failed to provide Claimant’s complete medical records to
Claimant’s expert for his review and the Claimant’s Exchange of Expert Witness
Disclosure was only one week late.
The Respondent stated that it is not the Claimant’s right to tell the
'T

Respondent’s expert what records he should review, that this is the Respondent

2

Counsel’s responsibility and there is no merit to the contention that Dr. Priver
was deprived of an opportunity to review the Claimant’s medical records. It is not
the Respondent’s responsibility to provide records to an expert retained by the
Claimant.
Claimant’s Deposition
During Mrs. Qin’s deposition, her husband, Sun Zhi Xun, constantly
interrupted the deposition, and coached the Claimant in her responses to the
Respondent Counsel’s questions,1 despite the Arbitrator’s Order that he had no
authority to represent the Claimant.2
The Claimant also refused to cooperate during her deposition and refused
to answer questions posed by the Respondent Counsel numerous times.3 This
constitutes a misuse of the discovery process pursuant to Section 2023.10 (d) of
the California Code of Civil Procedure, which states the following: Misuses of the
discovery process include, but are not limited to, the following:
(f) Making an evasive response to discovery.
Demand for Exchange of Expert Witness Disclosure
Respondent served a timely Demand for Exchange of Expert Witness
Disclosure on April 8, 2015.4
Section 2034.230 of the California Code of Civil Procedure requires the
following:

Qin deposition,pages 17,18,19, 43,45,55,60,73-74,78,81,83,84,87,89,90,94,95,96,97,98,99,104,105,110113
2 Arbitrator’s Order dated December 1, 2015, clearly refers to the Claimant’s husband; pages 17,18,19,
43,45,55,60,73-74,78,81,83,84,87,89,90,94,95,96,97,98,99,104,105,110-11
3 Deposition of Mrs. Qin, December 22,2015;pages 27,29,30,40,41,42,48,49,51,52,53,54,56,66,67,70,
85,86,91,105-106
4 Exhibit 1-Respondent’s Demand for Exchange of Expert Witness Disclosure

3

(a) A demand for an exchange of information concerning expert trial
witnesses shall be in writing and shall identify, below the title of the case, the
party making the demand. The demand shall state that it is being made under
this chapter.
(b) The demand shall specify the date for the exchange of lists of expert
trial witnesses, expert witness declarations, and any demanded production of
writings. The specified date of exchange shall be 50 days before the initial trial
date, or 20 days after service of the demand, whichever is closer to the trial date,
unless the court, on motion and a showing of good cause, orders an earlier or
later date of exchange.
(c) If any witness on the list is an expert as described in subdivision (b) of
Section 2034.210, the exchange shall also include or be accompanied by an
expert witness declaration signed only by the attorney for the party designating
the expert, or by that party if that party has no attorney. This declaration shall be
under penalty of perjury and shall contain:
(1) A brief narrative statement of the qualifications of each expert.
(2) A brief narrative statement of the general substance of the testimony
that the expert is expected to give.
(3) A representation that the expert has agreed to testify at the trial.
(4) A representation that the expert will be sufficiently familiar with the
pending action to submit to a meaningful oral deposition concerning the specific

4

testimony, including any opinion and its basis, that the expert is expected to give
at trial.
(5) A statement of the expert’s hourly and daily fee for providing deposition
testimony and for consulting with the retaining attorney.
Late Submission of Claimant’s Written Exchange of Required Expert Witness
Disclosure
The due date for the Exchange of Expert Witness Disclosure was
December 7, 2015.
On December 7, 2015, Respondents served their Written Exchange of
Required Expert Witness Information and Expert Witness Declaration.

They

designated John Steven Wachtel, M.D., an obstetrician, as their retained expert
and provided an Expert Witness Declaration signed by John S. Simonson
Respondents’ attorney.5 Claimant did not serve its Exchange of Expert Witness
Disclosure until December 25 or 26, 2015, after the Respondent served its Notice
of Motion and Motion to Dismiss.6 The Claimant’s Written Exchange of Required
Expert Witness Information and Expert Witness Declaration is dated December
26, and 25, 2015, respectively.
Claimant’s Written Exchange of Required Expert Witness Information and Expert
Witness Declaration
The Claimant’s Expert Witness Declaration states, inter alia, the following:
“I, Li Qin, Claimant in pro per, declare:
I. I am Claimant in pro per of record in this action. I make this Expert
Witness Declaration as required by section 2034.260 of the Code of Civil
Procedure.
5 Exhibit 2-Respondent’s Written Exchange of Required Expert Witness Information and Expert Witness
Declaration; Expert Witness Declaration; Expert Witness Declaration and Curriculum Vitae of Dr. Wachtel
6 Ex. 3

5

2. Dr. David Michael Priver, M.D. As to this expert, I am informed and
believe that the following is true:
A. Qualifications: Please see attached CV.
B. This expert had been retained to provide expert opinion testimony
concerning the standard of care applicable to the diagnosis and treatment of
Claimant and whether the standard of care was met in regard to the care to
rendered Claimant by Respondents. This expert will also give opinion testimony
regarding medical causation and damages.
C. Dr. David Wachtel has agreed to testify at arbitration.
D. This expert will be sufficiently familiar with the pending action to submit
to a meaningful oral deposition concerning his testimony, including any opinion
and its basis that he may provide at arbitration.
E. This expert’s fee for providing deposition testimony is $1,500.00 per
half day or portion thereof.
I declare under penalty of perjury under the laws of the State of California
that this declaration was executed on December 24, 2016(sic), and that the
foregoing is true and correct of my own personal knowledge.
Date: December 25, 2015

Li Qin, Claimant in pro per”.

This Declaration by Claimant did not specify that Dr. Priver was prepared
to testify; only that Dr. David Wachtel was prepared to testify, and Dr. Wachtel is
not the Claimant’s expert. The Claimant also got Dr. Wachtel’s first name wrong.
It is not David. The Claimant submitted a subsequent notice dated after the
Hearing, on January 9, 2016, which now states that Dr. Priver will appear at the
Arbitration Hearing.7
The late disclosure by the Claimant is not dispositive of this matter.
Dr. Wachtel, in his declaration of April 8, 2015, opined that based on his
careful and thorough review of the Claimant’s medical records, as well as his
professional and academic experience and training, to a reasonable medical
probability all of the obstetrical care and treatment received by Mrs. Qin from

7 Ex. No. 4

6

Kaiser was within the applicable standard of care. He also opined that no act or
omission attributable to Kaiser caused Mrs. Qin to experience harm related to her
birth. This included the treatment that she received from Kaiser before, during
and after her December 18, 2013 C-section.8
Dr. Priver initially stated in a report dated July 18, 2015, that “an incisional
hernia appeared essentially immediately following surgery and he concluded
that, more likely than not, the fascial incision was not properly repaired”.9 He
based his opinion totally on what the Claimant and her husband told him. This
report was not a declaration submitted under penalty of perjury. He submitted a
subsequent declaration dated November 3, 2015, which was identical in
substance to the July 18, 2015, report.10
Dr. Wachtel replied to Dr. Priver’s report on September 29, 2015, and
stated the following:
Dr. Priver s report did not state which medical records he reviewed and it
does not appear that he carefully reviewed the medical records because
his statements in the Report do not conform to the facts stated in
records. Mrs. Qin’s records reflect no apparent hernia until at the earliest,
February 19, 2014, two months after her surgery of December 18 2013
and his statement that “the fact than an incisional hernia appeared
essentially immediately following surgery leads to the conclusion that,
more likely thsn not, th6 foscisl incision wss not proporly ropsirod” is
completely In error.11
Furthermore, the Respondent took Dr. Priver’s deposition on January 4,
2016. During his deposition Dr. Priver stated that he had not been provided with

8 Ex. 8, Wachtel Declaration dated 4/8/15
9Ex. No. 9 Priver Declaration dated 7/18/15
10 Ex. No. 10, Priver Declaration dated 11/3/15
11 Ex. No. 11, Wachtel Declaration dated 9/29/15

7

complete records in this case12. However, he sentan email on January 7, 2016
to the parties and the Arbitrator in which he stated the foliowi
ing:
“Hello Sam,
In carefully reviewing Li’s records on a disc which I
must admit I had
forgotten about, but just found buried in a drawer. .. ”13
Therefore, Dr. Priver’s declarations and

reports were not in compliance

with Section 2034.260 (c) (4) of the California Code of Civil

Procedure (CCP)

which requires that the expert be sufficiently familiar with the pending
submit to a meaningful oral deposition
including any opinion and its basis, that the

action to

concerning the specific testimony,
expert is expected to give at trial.

During his deposition Dr. Priver testified as follows:
Q.

'W''

LXSid anMaPPr°Priate type Of evaluation to
this, then that would modify my opinion Like I «saiH ; either confirm oi^i
in my declaration
,l reserve the right to mod#*

my ™Sat'°n'S br0U9M t0 my attention

Q. And how would that Impact your opinion in this case?
a certain amourS]!^^

to bear

here. We expect people to talk o 0^1^ k If
seem to be thinkinp happened was n£?

“Bxx: £Tr'66:15-25
8

£

r,nary me<tioine

then I would have to -I would have to doubt the veracity of it.
Q. And doubt the veracity of what Mr. Sun is telling you?
A. Correct. So I think Q. and where would that leave you in terms of your opinion?
A, Well, it would do away with my opinion that there was negligence

here”.14

Dr. Privers initial opinion finding an incisional hernia almost immediately
after surgery was based on what the Claimant and/or her husband told him15 Dr.
Priver, in his January 7, 2016, email stated the following:
- .. ' have been able t0 locate both nursing notes and OB MD progress notes
for the days immediately following the CS. In so doing, I find no evidence that
e'ther l_! nor you ever reported her sudden incisional pain and bulging to anyone
Unfortunately, this leaves me unable to testify that there is evidence that an
incisional hernia occurred at a very early post op time”.16
Reading_this^ emai| in conjunction with his deposition testimony, it is
reasonable to conclude that Dr. Priver cannot provide any expert testimony that
tje Respondents were negligent in providing medical care to the Claimant
regarding the caesarian section and the incisional hernia.
Moreover, Dr. Priver has no opinion regarding the issue of informed
consent.17 Although the Claimant stated that she did

not sign an informed

consent form there is no requirement in the State of California for such
During the Hearing the Arbitrator requested that Respondent’s Counsel

a form,
provide

documentation regarding the issue of informed consent. Respondent provided
the following documents:
Ex- No- 14> Priver deposition testimony, Tr. 75:5-25; 76:1-18
16 gX
Priver deposition testimony, Tr. 48:21-25;49:1-13
17 Ex. No. 16, Priver deposition testimony, Tr. 71:4-10

9

1.

M.D. (Kaiser

The progress note contains

a notation by Dr. Steven Chen, which states

Questions^nswere^M/nel^toTeJiew °n 12/23/13' Reviewed R/B of CD.
appf.
' need t0 rev,ew Pre-°P and lab instruction at future
The OB Admission History and Physical note by Dr. Joanna Stark
states
delivery. I explained the retevant'risks 'includJna^h'^/b'3 lndlcat'ori for Cesarean
hemorrhage,
infection,
damage ’ to d
but ,not llmited to anesthesia,
thrombosis/pulmonary embolism neonate comnltS"
StrdctUreS'
venous
discussed the alternative of vaginal
, and even death- We
case. I explained the probable lenath o?\7»,
a
commended in her
described the normal discomforts actiVitv mstriav
d ?'tena for discharge. |
procedure. I answered all her question! 'In'!? *1? rec0',eryPeriod for the
understanding and desire to proceed'?
d Mrs' Qin ind'cated her
These documents indicate that the
were discussed with Mrs. Qin

risks of the cesarean section

and she consented to the

surgery

surgery. She has not

provided any competent

expert medical evidence to support her contention
regarding the issue of informed
consent.
Medical negligence

requires competent medical
testimony. Without a
qualified expert the Claimant lacks
competent expert testimony to establish the
prime facie elements of her claim
• Since Dr. Priver is unable to provide
any
expert testimony that the Respondents
were negligent in providing medical care
to the Claimant r

egarding the cesarean section end
■
section and the incisional hernia, which

18 Ex. No. 17

10

goes to the essence of the Claimant's claim, it would be pointless to proceed to
Hearing regarding this matter.
During his deposition on January 4, 2016, Dr. Priver stated the following:
A. Because I m quite sur^ln^/vere told by him that she developed this incisional
hernia weeks or months later, I would have told him there’s no reason to pursue
a case like this. That’s not-that’s not substandard”.19
Dismissal
The issue of malpractice requires that expert testimony be provided to
support the Claimant’s claims on the standard of care and causation. It is well
settled that expert testimony is ordinarily required to prove the material or
relevant issues in an action for malpractice. Sjmmons v. West Covina rwwii^i
Clinic (1989) 212 Cal. App.3d, 696, 702; Sinz

v^ Owens_(1949), 33 Cal.2d 749;

753; Landeros v flood (1976) 17 Cal.Sd 399, 410). In Landerns the Court
explained the requirement for expert testimony

necessary to establish the

standard of care as follows:
measured is a matter peculiarlywithin the knowledge / 3 physiclan are to be
basic issue in a malpractice action and could
°f experts;l( Presents the
unless the conduct required by the particuter 1-y b? pr0Ved by their testimony
knowledge of the laymen... (ibid).
c'reumstances is within the common
The Claimant

was allowed to snhmif

disclosure. However, Dr
January 7, 2016,

exchange
Priver’s reports and deposition testimony and email of

are fatally defective

evidence to ^pport the Claimant’s claim

19 Ex. No. 15, Priv

ajate expert witness

er Deposition, Tr. 49:18-22

11

and do not constitute
of medical negligence

competent expert

In any medical malpractice action, the plaintiff must establish (I) the duty of
the professional to use such skill, prudence and diligence as other members of
his profession commonly possess and exercise; (2) a breach of that duty; (3) a
proximate causal connection between the negligent conduct and the resulting
injury; Hanson v. Grode. 76 Cal. App. 4th 601, 606,90 Cal. Rptr. 2d 396

(1999).

In the instant case, there is no medical evidence that Mrs. Qin or her
husband reported an incisional hernia or a bump immediately after her C-section
or at the time of her discharge on December 18, 2013. Dr. Priver testified in his
deposition that the basis for his opinion was based on the report by the
Claimant’s husband that there was sudden onset of pain and a bulge the next
day after surgery.
At the time of his deposition Dr. Priver had not reviewed the complete
medical records of the Claimant although he had them. He recanted his opinion
in his January 7, 2016, email because upon further review of the Claimant’s
Kaiser medical records, he stated that there was no evidence of any report of this
complaint by the Claimant or her husband in the records. The first mention of the
incisional hernia occurred on February 24, 2014. Regarding the issue of informed
consent, Dr. Priver testified in his deposition that he has no opinion regarding the
issue of informed consent. 20 The claimant has provided

no competent expert

testimony from a physician to support a prima facie claim of medical negligence
and the Respondents have met their burden of producing evidence on the issues
of negligence and causation. Respondents have established facts sufficient to

20 Ex. 17

12

negate Mrs. Qin's claim via the declarations of Dr. John Wachtel in conjunction
with Dr. Priver s deposition testimony and subsequent email of January 7

, 2016.

California Code of Civil Procedure Section 2023.020 (d) (3) states the
following: To the extent authorized by the chapter

governing any particular

discovery method or any other provision of this title, the court,

after notice to the

affected party, person, or attorney, and after opportunity for hearing, may impose
the following sanctions against anyone engaging in conduct that is a misuse of
the discovery process:
(d) The court may impose a terminating sanction by one of the following
orders:
(3) An Order dismissing the action,

or any part of the action, of that party,

Based on the Claimant’s and her husband’s
which constitutes a failure to

conduct during her deposition

participate in a meaningful deposition, this

constitutes a misuse Of the discovery process pursuant to Sect
the California Code of Civil Proced

ion 2023.010 of
ure.

Moreover, based on
the Claimant’s failure to

submit a competent expert
experts failure to participate i
in a meaningful deposition,
and his subsequent
reversal of his oni
opinion to support her claim,
and the absence
of exPert medical testim
°ny to support her claim,
the Respondents' motion to
dismiss is granted. Based
on the foregoing and
GOOD CAUSE having been
shown, IT IS HEREBY
ORDERED THAT
witness disclosure, her

13

/

1. Respondents Kaiser Foundation Hospitals
Plan, Inc., and The Permanente

Kaiser Foundation Health

Medical Group, Inc. Motion to Dismiss Claimant

Li Qin’s Demand for Arbitration i
is GRANTED with prejudice.
2. The Arbitration Hearing scheduled

on February 2, 2016, is vacated.

3. Nothing in this arbitration deci
ecision prohibits or restricts the
enrollee from discussing or reporting the
underlying facts, results, terms
and conditions of this decision to the Department
of Managed Health Care.
Date: January 26, 2016

Barbara kong-brown, ESQ.
arbitrator

\

14

No.:
SUPREME COURT OF THE UNITED STATES
Li Qin

Petitioner
vs.
Barbara Kong-Brown et al. Respondents
On Petition for a Writ of Certiorari to
the United States Court of Appeals for the Ninth Circuit
APPENDIES TO THE PETITION FOR A WRIT OF CERTIORARI

Appendix H

v

